WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1053

Little Sisters of the Poor Jeanne Jugan Residence

v.

California

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

March for Life Education and Defense Fund

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

March 19, 2020

(Type or print) Name

John J. Bursch
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Alliance Defending Freedom

Address

440 First Street NW, Suite 600

City & State
Phone

Washington, DC

(616) 450-4235

Zip
Email

20001

jbursch@adflegal.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Mark Rienzi, Becket Fund, 1200 New Hampshire Ave, NW, Suite 700, Washington, DC 20036

